No. 20-297

 

IN THE

Supreme Court of the United States

TRANS UNION LLC,
Petitioner,

Vv.

SERGIO L. RAMIREZ,
Respondent.

On Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit

BRIEF OF COMPLEX LITIGATION LAW
PROFESSORS AS AMICI CURIAE IN
SUPPORT OF RESPONDENT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,054 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 10, 2021.

 

Wilson-Epes Printing Co., Inc.
